No

4.).0

-

53/11

IN THE
SUPREME COURT OF THE UNITED STATES

r eA

S--h.101-)Vell— PETITIONER

(Your Name)

vs.
Aft 1( C cise,

/

56 I cs

r

RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO
•

Uy11-&c1 5-1-cd-v_s covr1-6-P

AP

Ais Tdr

thc 5eventil C(rc,01-

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

7)—cirtsci

34.41110-_61ct

(Your Name)

Pcvs7
(Address)

01;c y (.1
aff

TL COV ,

(City, State, Zip Code)

773 17C 71(2
(Phone Number)

QUESTION(S) PRESENTED

/61-1-vi

A110'wtJ.

+0

rrcei v

(1.

ri
of) A CI( Y1

c.

Of ri c51'.‘"1-6
c

D0,3 ‘11 2_ ?)
h

)1S

huf+c P

C

At/611ey
lrif y

if
(6)
116F --/-0
t1/4f1211

?p
--ahey)6

LIST OF PARTIES

[

All parties appear in the caption of the case on the cover page.

[

All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:
H, rad - 61r—#01,
(15-6t)5
c.5' I

I

tc crab filly

DAktì

kyxj ,t-eyo% /1/L tblsex:
ctii,

Eve

Any S,

Fox4-.

F,

I'va I fOn

MA fit ti

P, icen

roo k

olh

h

CAA y 5,udA,yRELATED CASES

Ih

UrCA cour+ cock couht) ) I L LINO FS
Ty- 6 6 -)30 Tel,CC- -,A8Cast /4 4- jj_ TA/
2_4? TAI-C,66
C
,
Jr ww -3 3 I
4),
Co .1.k

134 /51-i(c -F

E.sfery Divion

k

rFc
1,5 If -CV - 62715

foft,5 C u rst 6f A

0iAscc

_Dino&

25 2..7

peA1 for 11) t Sniotiti-Cy-c,1-

TABLE OF AUTHORITIES CITED
CASES
arf

PAGE NUMBER

c,ouct 0f ccdsk cooydry Td--6a-)5)

us Di(6-fri6f- Good- of
); f --

5

(5271

US courf of Arpecils

Brhols

Fr4stern Division 7— 1

5r,VeA Cl'rcciA

ti - 33

STATUTES AND RULES

c`yi) rig,tr

6_3+- w1'evIrl,at"
5 4 41(I ty,0 0),&nt
Ave46rndvieni11-144)

OTHER

•Tifie„ 92 5-refloh I S83 u5.,&;
(
ue C,
1 rkl.Q, ill c-1-119ii 11

66

Table of contents
34 pages
Opinion below

1

Jurisdiction

2

Constitutional and statutory provisions involved

3

Statement of the case

4

Reasons for granting the petition

5

Conclusion

6

Appendix
Appendix A (district court)
Amended complaint

5

7-11

Appendix .B (court of appeal)
Writ of mandamus

12-13

Appeal

14-15

Denial motion to proceed in fonna pauperis

16-19

Docketing fee paid

20

,Opinion of district judge

21

Brief Summaiy

28-30

Opinion of appeal judge

31-33

Appendix C (state court)
Certified statement of disposition

22-27

Appendix D
Table of authorities cited

34

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

[AlFor cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is
4 1 pz 4
U$CA
k" C Ir 7
tic K ) Go- ) ; or,
[reported at S±
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.

v,

- 256 7

The opinion of the United States district court appears at Appendix
the petition and is

For cases from state courts:
The opinion of the highest state court to review the merits appears at
to the petition and is
Appendix
; or,
[ reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the
appears at Appendix

to

okofil'c-6;Jodr, rr-cv- O27 I 5

Cle r k cook
-57-1M2iSt U
[ has been designated for publication but is not yet reported; or,
[ ] is unpublished.

[4 reported at

[

to

court
to the petition and is

; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

JURISDICTION
] For cases from federal courts:

The date on which the United States Court of Appeals decided my case
was
Marck 2 7)2 ej2
[ ] No petition for rehearing was timely filed in my case.
RIA timely petition for rehearing was denied by the United States Court of
7 ) 2c1 0 , and a copy of the
Appeals on the following date.
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including
(date) on
(date)
in Application No. _A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix
[ ] A timely petition for rehearing was thereafter denied on the following date:
, and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date) on
to and including
(date) in
Application No. _A
The jurisdiction of this Court is invoked under 28 U. S. C. §1257(a).

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

,
ConSri ru3l orq I inY 01 ye
e,

141 /I

'4-0 St CU -)P

),1„55 / yr) S

lArx-ty to

4\1 G our Pod-r,r:q-y,

Oursv,Ive5

AyFt& it, 69
/51-con

w

vkl'Aredfi
1110er+y o r

rit-nc/m cht n o r 6. der 1 veJ Or

fro

rty

1
IV 1111

, tit),

0(1+-

(4,

12r0 C

Of

1 C2

✓)

W 1..)) 0 U

0,7 ens'

("31

It'11/6114- 5 e Ole hl

571-4-d—o-ry pr oyission
CaYiplekl(Cfr 011,e'r
Co CI

1 n VO) arn eta
Ci 41

Ii)-ItS

se,01-in, 16)

g3

it\ C

1-1(1-1&

V id-rd

Fff (b)

Supreme Court ofthe United States .
Jared Stubblefield

No. 20-5314
VS
Chicago police officer
Michael Seiser badge #4615
Cook County of Illinois States Attorney
Kimberly M. Foxx
Cook county circuit judge
Andrea M. Webber cook county judge
District judge of northern District of Illinois
Matthew F. Kennelly District judge
United states court of appeal for the 7 circuit
Judge Frank H. Easterbrook.
Judge Amy J. S.T. Eve
Judge David F. Hamilton
Judge Michael B. Brennan
Judge Michael Y. Scudder
Petition for rehearing
Writ of Certiorari
1 Jared Stubblefield coming as pro sa litiagant file petition of writ of certiorari to united states
supreme court. I Jared Stubblefield had a matter in state court where declaratory relief was
unaVailable. I went to trial at circuit court of cook county and won. Within this same matter I
filed civil action for deprivation of rights 42 U.S.C. § 1983 seeking declaratory relief. I filed this
matter at United States District Court Northern District of Illinois. Within in me filing I was
deprived of life,. liberty, and property without due process of law. My case was dismissed in
district court where the judge stated that it was frivolous. Sol filed an appeal with the United
States court of appeal of seventh circuit. Which the appellate court agreed with the district judge.
I ask the supreme court to allow me due process, so that the enumeration in the Constitution, of
certain rights, shall not be construed to deny or disparage for the. My declaratory relief is a form
of attorney fee pursuit to proceedings in vindication of civil right 42 U.S.C. § 1988(b). As
officers of the United Stated Supreme Court I ask that this matter be equal justice under law.

Jared stubblefield
6011 s. damen
Chicago IL 60636

11/03/2020

REASONS FOR GRANTING TH

E PETITION

couff-s

L.9

11-1

'el

Yv1

UY)/ ( fecl

EH-e ),Ict

SfjeS Cant5)-;1-01-1(011 ID be

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submi

Date.

///(9 .202_JO

[If you need additional space for ANY section, please attach an additional sheet and reference that section.]

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION

RECEIVED
JUL 1 6 2019
THOMAS G. BRUTON
CLERKS U.S. DISTRICT COURT

(Enter above the full name
of the plaintiff or plaintiffs in
this action)
vs.

CAI c/ .0 ID° &f/
ere-ti t.er
M itd) I Se:15

Case No Ii
1/— 627 11
(To be supplied by the Clerk of this Court)

1,(-emne,11,1

(Enter above the full name of ALL
defendants in this action. Do not
use "et al.")
CHECK ONE ONLY:

AMENDED COMPLAINT

COMPLAINT UNDER THE CIVIL RIGHTS ACT, TITLE 42 SECTION 1983
U.S. Code (state, county, or municipal defendants)
COMPLAINT UNDER THE CONSTITUTION ("BIVENS" ACTION), TITLE
28 SECTION 1331 U.S. Code (federal defendants)
OTHER (cite statute, if known)
BEFORE FILLING OUT THIS COMPLAINT, PLEASE REFER TO "INSTRUCTIONS FOR
FILING." FOLLOW THESE INSTRUCTIONS CAREFULLY.

[If you need additional space for ANY section, please attach an additional sheet and reference that section.]

[If you need additional space for ANY section, please attach an additional sheet and reference that section.]

I.

Plaintiff(s):

rut Abgro,Gria

Name.
List all aliases:

Prisoner identification number:
Place of present confinement:

60/I S

Address:

(If there is more than one plaintiff, then each plaintiff must list his or her name, aliases, I.D.
number, place of confinement, and current address according to the above format on a
separate sheet of paper.)
II.

Defendant(s):
(In A below, place the full name of the first defendant in the first blank, his or her official
position in the second blank, and his or her place of employment in the third blank. Space
for two additional defendants is provided in B and C.)
Defendant:
Title:

Ati
dictri

8

Gle t, 4 ti6

Place of Employment: Chi C4p011Cct
Defendant:
Title:
Place of Employment:
Defendant:
Title:
Place of Employment:
(If you have more than three defendants, then all additional defendants must be listed
according to the above format on a separate sheet of paper.)

2

Revised 9/2007

[If you need additional space for ANY section, please attach an additional sheet and reference that section.]

[If you need additional space for ANY section, please attach an additional sheet and reference that section.]

III.

List ALL lawsuits you (and your co-plaintiffs, if any) have filed in any state or federal
court in the United States:
Name of case and docket number:

TAI -- (046— )2.9

T/ 6‘7(0 37

rA/ — 14_6 —3-30

Approximate date of filing lawsuit:

q120

pi, —32 fi

TA- C4-31

/201

List all plaintiffs if yop had co-plaintiffs), including any aliases: .54 ram

tkr P IS

List all defendants:

Ag

Aft 1414 f, I Se/1 5 ter-

itc.

Court in which the lawsuit wasfiled (if federal court, na e the district; if state court,
name the county): Ct r

Afars

Name of judge to whom case was assigned:

Basic claim made:

A+)- 6f n

le-et,

Disposition of this case (for example: Was the case dismissed? Was it appealed?
Is it still perkding?):
all GkYve,9 01' el L-C c2S

Approximate date of disposition:

IF YOU HAVE FILED MORE THAN ONE LAWSUIT, THEN YOU MUST DESCRIBE THE
ADDITIONAL LAWSUITS ON ANOTHER PIECE OF PAPER, USING THIS SAME
FORMAT. REGARDLESS OF HOW MANY CASES YOU HAVE PREVIOUSLY FILED,
YOU WILL NOT BE EXCUSED FROM FILLING OUT THIS SECTION COMPLETELY,
AND FAILURE TO DO SO MAY RESULT IN DISMISSAL OF YOUR CASE. COPLAINTIFFS MUST ALSO LIST ALL CASES THEY HAVE FILED.

3

Revised 9/2007

fit you need additional space for ANY section, please attach an additional sheet and reference that section.]

[If you need additional space for ANY section, please attach an additional sheet and reference that section.]

Statement of Claim:

IV.

State here as briefly as possible the facts of your case. Describe how each defendant is
involved, including names, dates, and places. Do not give any legal arguments or cite any
cases or statutes. If you intend to allege a number of related claims, number and set forth
each claim in a separate paragraph. (Use as much space as you need. Attach extra sheets
if necessary.)

On
VY4

0 /20 te
9/1
tit vp,t, 5-0

c71. w.41,s
4451 frA

1IC

iC

vg
weks

he,

w

wAsr," 4
mijkr:

110 vi M

Cinordy

C

+45
YVi

5

-Pile,

el fowled. 4-6 ft(16 ally 1)1,1,1 1-D4
f
k
6;(5 IV i ns C 0 air 4- to
a Fro 19 0 saA 1

at-Lorn ri 4r r,.

fo r

ord. t,r

At.-Ft vIct 4,15 .11);:r

ks-164 -PO( 9y4i prOecnon of t'L
,5
lAvs; AAA iiI4t i( f GI
-Feauid s kJ() e. #k 1
oh-fi;cf- No d 1)
r-o&fi-s i-e
afi-Orh , /y Cu.
ri,H-er,

ktforn,y

Fe-e,

st12.,000 006
4

4

Revised 9/2007

[If you need additional space for ANY section, please attach an additional sheet and reference that section.)

[If you need additional space for ANY section, please

attach an additional sheet and reference that section

.]

Relief:
State briefly exactly what you want the court to do for you.
Make no legal arguments. Cite
no cases or statutes.

I A.5
t, Lourf
()yang- ill& IA,r; r4

1-a 5;LE., "'ye. se4y4 ,ftwateri,(60

lie./

0n
tei

lbw a"2,

SI-41-ur_c

C 6 *?

cohji;titfiedea r t5.

The plaintiff demands that the case be tried by a jury.

0 YES

0 NO

CERTIFICATION
By signing this Complaint, I certify that the facts stated
in this
Complaint are true to the best of my knowledge, inform
ation and
belief. I understand that if this certification is not correct,
I may be
subject to sanctions by the Court.
Signed this

15

day of

Li

, 20_1_11

ature of plaintiff or plaintiffs)

51-4)))/tfi`eicl

(Print name)

(I.D. Number)

ON

Irvieo-)

CAitel r

14- 7 0'36

(Address)

[If you need additional space for ANY section, please

6

Revised 9/2007
attach an additional sheet and reference that section.]

1
United States District Court
Northern District of Illinois Eastern Division

U.S.C.A. — 7th Circuit
RECEIVED

Jared Stubblefield
Plaintiff

AU6 0 8 2019 MAN
GINO J. AGNELLO
CLERK
VS

case # 1:19-cv-02715

Chicago policer officer
#4615 Michael Seiser

Judge Kennelly

Writ of Mandamus
I Jared Stubblefield have a petition writ of mandamus on this matter. I was denied the
secure the Blessings of Liberty to myself and my posterity. I was taken to court by Michael
Seiser in the Circuit Court of Cook County, Illinois where I defended myself as my own
attorney. .1 was tried in court where I was acquitted of the charges held against me. The Circuit
Court of Cook County, Illinois didn't allow me to file my proposal order for my attorney

fee.

I know in the United States of America This Constitution, and the Laws of the United
States which shall be made in Pursuance thereof; and all Treaties made, or which shall be

made,

under the Authority of the United States, shall be the supreme Law of the Land; and the Judges
in every State shall be bound thereby, any Thing in the Constitution or Laws of any state

to the

Contrary notwithstanding (article 6 paragraph 2). The judges didn't allow me equal protectio

n in

this matter, but the constitution give me equal protection. All persons born or naturalized

in the

United States and subject to the jurisdiction thereof, are citizens of the United States and

of the

State wherein they reside. No State shall make or enforce any law which shall abridge the
privileges or immunities of citizens of the United States; nor shall any State deprive any person

2
of life, liberty, or property, without due process of law; nor deny to
jurisdiction the equal protection of the laws (1.4 Amendment).

any person within its

Also I have a secured liberty right

to work, amendment secures right to work. My 9th and 10th amend

ment protect me from any

encroachment on my rights. The enumeration in the Constitution, of certain rights,
shall not be
construed to deny or disparage others retained by the people (9th amend

ment), The powers not

delegated to the United States by the Constitution, nor prohibited by
to the States respectively, or to the people (l Oth Amendment).

Jared Stubblefield
6011 S. Damen
Chicago Illinois 60636

it to the States, are reserved

1
United States District Court
Northern District of Illinois Eastern Division

RECEIVED
AUG 1 2 2019

Jared Stubblefield
Plaintiff

THOMAS G. BRUTON
CLERK, U.S. DISTRICT COURT

VS

case # :19-cv-02715

Chicago policer officer
#4615 Michael Seiser

Judge Kennelly
appeal

I Jared Stubblefield have a petition appeal on this matter. I was denied the secure the
Blessings of Liberty to myself and my posterity. I was taken to court by Michael Seiser in the
Circuit Court of Cook County, Illinois where I defended myself as my own attorney. I was tried
in court where I was acquitted of the charges held against me. The Circuit Court of Cook
County, Illinois didn't allow me to file my proposal order for my attorney fee. Judge Kennelly
dismissed my case because he said I wasn't allowed to receive an attorney fee it a federal code
that doesn't allow me to, but my 9 and 10 amendments protect my rights.
I know in the United States of America This Constitution, and the Laws of the United
States which shall he made in Pursuance thereof; and all Treaties made, or which shall be made,
under the Authority of the United States, shall be the supreme Law of the Land; and the Judges
in every State shall be bound thereby, any Thing in the Constitution or Laws of any state to the
Contrary notwithstanding (article 6 paragraph 2). The judges didn't allow me equal protection in
this matter, but the constitution give me equal protection. All persons born or naturalized in the
United States and subject to the jurisdiction thereof, are citizens of the United States and of the

2
State wherein they reside. No State shall make or enforce any
privileges or immunities of citizens of the United States; nor

law which shall abridge the

shall any State deprive any person

of life, liberty, or property, without due process of law; nor deny
jurisdiction the equal protection of the laws (14 Amendment).
to work, 1st amendment secures right to work. My 9th and 10th

to any person within its

Also I have a secured liberty right
amendment protect me from any

encroachment on my rights. The enumeration in the Constitution,
of certain rights, shall not be
construed to deny or disparage others retained by the people
delegated to the United States by the Constitution, nor prohib

(9' amendment). The powers not
ited by it to the States, are reserved

to the States respectively, or to the people (10th Amendment).

Jared Stubblefield
6011 S. Damen
Chicago Illinois 60636

UNITED STATES COURT OF APPEALS FOR THE SEVENTH CIRCUIT

Everett McKinley Dirksen United States Courthouse
Room 2722 - 219 S. Dearborn Street
Chicago, Illinois 60604

Office of the Clerk
Phone: (312) 435-5850
www.ca7.uscourts.gov

CIRCUIT RULE 3(b) NOTICE
August 13, 2019
JARED STUBBLEFIELD,
Plaintiff - Appellant
No. 19-2567
CLERK OF THE CIRCUIT COURT OF COOK COUNTY, et al.,
Defendants - Appellees
4:4 .

44;x46*
District Court No: 1:19-cv-02715
Northern District of Illinois, Eastern Division
District Judge Matthew F. Kennelly
Clerk/Agency Rep Thomas G. Bruton
Circuit Rule 3(b) empowers the clerk to dismiss an appeal if the docket fee is not paid within
fourteen (14) days of the docketing of the appeal. This appeal was docketed on
August 13, 2019. The District Court has indicated that as of August 13, 2019, the docket fee has
not been paid. Depending on your situation, you should:
Pay the required $500.00 docketing fee PLUS the $5.00 notice of appeal filing
fee to the District Court Clerk, if you have not already done so. The Court of
Appeals cannot accept this fee. You should keep a copy of the receipt for your
records.
File a motion to proceed on appeal in forma pauperis with the District Court, if
you have not already done so. An original and three (3) copies of that motion,
with proof of service on your opponent, is required. This motion must be
supported by a sworn affidavit in the form prescribed by Form 4 of the
Appendix of Forms to the Federal Rules of Appellate Procedure (as amended
12/01/2013), listing the assets and income of the appellant(s).

3.

If the motion to proceed on appeal in forma pauperis is denied by the district
court, you must either pay the required $500.00 docketing fee PLUS the $5.00
notice of appeal filing fee to the District Court Clerk, within fourteen (14) days
after service of notice of the action to the district court, or within thirty (30)
days of that date, renew your motion to proceed on appeal in forma pauperis
with this court.

If the motion is renewed in this court, it must comply with the terms of Fed.R.App.P. 24(a).
If one of the above stated actions is not taken, the appeal will be dismissed.

form name: c7_DC_Fee_Notice_Sent(form ID: 158)

UNITED STATES COURT OF APPEALS FOR THE SEVENTH CIRCUIT

Everett McKinley Dirksen United States Courthouse
Room 2722 - 219 S. Dearborn Street
Chicago, Illinois 60604

Office of the Clerk
Phone: (312) 435-5850
www.ca7.uscourts.gov

CIRCUIT RULE 3(b) FEE NOTICE
October 7, 2019
JARED STUBBLEFIELD,
Plaintiff - Appellant
No. 19-2567

v.
CLERK OF THE CIRCUIT COURT OF COOK COUNTY, et al.,
Defendants - Appellees

District Court No: 1:19-cv-02715
Northern District of Illinois, Eastern Division
District Judge Matthew F. Kennelly
Clerk/Agency Rep Thomas G. Bruton
This court's records indicate that on October 7, 2019 the District Court denied your motion to
proceed in forma pauperis.
Pursuant to Federal Rule of Appellate Procedure 24(a),
WITHIN THE NEXT THIRTY (30) DAYS YOU MUST EITHER:
Pay the required $500.00 docketing fee PLUS the $5.00 notice of appeal filing
fee ($505.00 TOTAL) to the District Court Clerk. The Court of Appeals cannot
accept this fee. You should keep a copy of the receipt for your records.
File a motion to proceed on appeal in forma pauperis with the Court of
Appeals. An original and three (3) copies of that motion, with proof of service
on your opponent, is required. This motion must be supported by a sworn
affidavit in the form of a sworn statement listing your assets and income.
IF ONE OF THE ABOVE ACTIONS IS NOT TAKEN WITHIN 30 DAYS FROM THE DATE
LISTED ABOVE, YOUR CASE WILL BE DISMISSED, PURSUANT TO CIRCUIT RULE
3(b).
form name: c7_Rule3b_Notice_Sent(form ID: 145)

UNITED STATES COURT OF APPEALS FOR THE SEVENTH CIRCUIT

Everett McKinley Dirksen United States Courthouse
Room 2722 - 219 S. Dearborn Street
Chicago, Mina's 60604

Office of the Clerk
Phone: (312) 435-5850
www.ca7.uscourts.gov

ORDER
December 19, 2019
Before
FRANK H. EASTERBROOK, Circuit Judge
AMY J. ST. EVE, Circuit Judge

No. 19-2567

JARED STUBBLEFIELD,
Plaintiff - Appellant
v.
CLERK OF THE CIRCUIT COURT OF COOK COUNTY, et al.,
Defendants - Appellees

District Court No: 1:19-cv-02715
Northern District of Illinois, Eastern Division
District Judge Matthew F. Kennelly

Upon consideration of the AFFIDAVIT ACCOMPANYING MOTION FOR
PERMISSION TO APPEAL IN FORMA PAUPERIS, filed on October 15, 2019, by the
pro se appellant,
IT IS ORDERED that the motion for leave to proceed on appeal in forma
pauperis is DENIED. The appellant has not made a potentially meritorious argument
that the district court erred in dismissing the case for failure to state a daim. Appellant
shall pay the required docketing fee within 14 days, or else this appeal will be dismissed
for failure to prosecute pursuant to Circuit Rule 3(b).

UNITED STATES COURT OF APPEALS FOR THE SEVENTH CIRCUIT

Everett McKinley Dirksen United States Courthouse
'Room 2722 - 219 S. Dearborn Street
Chicago, Illinois 60604

Office of the Clerk
Phone: (312) 435-5850
www.ca7.uscourts.gov

BRIEFING ORDER
December 30, 2019
JARED STUBBLEFIELD,
Plaintiff - Appellant
No. 19-2567

CLERK OF THE CIRCUIT COURT OF COOK COUNTY, et al.,
Defendants - Appellees

District Court No: 1:19-cv-02715
Northern District of Illinois, Eastern Division
District Judge Matthew F. Kennelly
This court has received notice from the district court that the appellant paid the required
docketing fee.
Briefing will now proceed as follows:
1.

The Appellant's brief of Jared Stubblefield will be due by January 29, 2020 for 19-2567.

NOTE:
Important Scheduling Notice!
Hearing notices are mailed shortly before the date of oral argument. Criminal appeals are scheduled
shortly after the
filing of the appellant's main brief; civil appeals are scheduled after the filing of the appellee's
brief. If you foresee
that you will be unavailable during a period in which your appeal might be scheduled, please
write the clerk
advising him of the time period and the reason for your unavailability. The court's calendar is
located at
http://www.ca7.uscourts.gov/caliargcalendar.pdf. Once an appeal has been scheduled for oral
argument, it is very
difficult to have the date changed. See Cir.R. 34(e).

Case: 1:19-cv-02715 Document #: 28 Filed: 10/07/19 Page 1 of 1 PagelD #:70

IN THE UNITED STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF ILLINOIS
Jared Stubblefield,
Plaintiff,

Case No: 19 C 2715

v.
Clerk of Circuit Court, et al.,
Defendants.

Judge: Kennelly

It has come to the Court's attention that plaintiff has filed a motion for leave to appeal in
forma pauperis. The Court denies the motion [26], because the appeal is legally
frivolous. Plaintiff is seeking to recover an "attorney fee" in the amount of $12,000,000
for successfully defending himself—without an attorney—on traffic citations in state
court. Plaintiff does not allege that he was arrested, detained, or charged in violation of
his constitutional rights; rather he alleges only that he is entitled to an "attorney fee" for
defending himself as a matter of equal protection. That makes no sense; if he had
been represented by counsel, he would not have been entitled to attorney's fees for a
successful defense, so there is no conceivable equal protection violation in denying him
compensation for defending himself. And plaintiff cites no other facts or law that would
suggest any viable federal claim. Both the underlying lawsuit and the appeal are
frivolous. The Clerk is directed to transmit a copy of this order to the United States
Court of Appeals for the Seventh Circuit (7th Cir. Case No. 19-2567).

Date: 10/7/2019

MATTHEW F. KENNELLY
United States District Judge

[If you need additional space for ANY section, please attach an additional sheet and reference that section.]

UNITED STATES DISTRICT COURT
NO THERN DISTRICT OF ILLINOIS

D:\ )-eLsAke-Uv
Plaintiff

7/5

Case Number: /5-- C --())..
Judge: k en r) ed 17

V.

t

D F a lice 0 -r-rGe/a —

Gallo

t(

ti 61

Magistrate Judge:

Defendant

)4pPeA/ 45/0.1)) on

4.1

;

-

/ Ls

cl,(sos

Sr)

1.115104
‘44'i
I \OOPS G ?,40
CA-0,k) 5.000 GOO

11/2.-7/2Ai
[If you need additional space for ANY section, please attach an additional sheet and reference that section.]

(Rev. 1/06/05) CCG 0604

Certified Statement of Disposition
IN THE CIRCUIT COURT OF COOK COUNTY, ILLINOIS

PEOPLE OF THE STATE OF ILLINOIS
or

Chicago

CITY or VILLAGE of

No.

TN-666-328

v.

Jared Stubblefield

CERTIFIED STATEMENT OF DISPOSITION

I, DOROTHY BROWN, Clerk of the Circuit Court of Cook County, Illinois, and keeper of the records and the
seal thereof do hereby certify the records of the Circuit Court of Cook County reflect that:
On

September 20, 2018

a complaint was filed charging the

Defendant with the offense of ( 91604A0 ) Improper U-Turn - BLVD
On

April 3, 2019

the aforementioned cause was held for a

hearing before the Honorable Judge Andrea Webber
a judge of the Circuit Court of Cook County, and the order entered by the Court was

Dismissed / Want of Prosecution /

I hereby certify that the foregoing has been entered
of record on the above captioned case.

Dated:

November 26 , 2019

DOROTHY BRO N,
Clerk of the Circuit Court of Co k County, Illinois

DOROTHY BROWN, CLERK OF THE CIRCUIT COURT OF COOK COUNTY, ILLINOIS

Certified Statement of Disposition

(Rev. 1/06/05) CCG 0604

IN THE CIRCUIT COURT OF COOK COUNTY, ILLINOIS

PEOPLE OF THE STATE OF ILLINOIS
or

Chicago

CITY or VILLAGE of

No.

TN-666-329

v.
Jared Stubblefield

CERTIFIED STATEMENT OF DISPOSITION

I, DOROTHY BROWN, Clerk of the Circuit Court of Cook County, Illinois, and keeper of the records and the
seal thereof do hereby certify the records of the Circuit Court of Cook County reflect that:
On

September 20, 2018

a complaint was filed charging the

Defendant with the offense of ( 6112000 ) Carry / Display License / Permit
On

November 29, 2018

the aforementioned cause was held for a

hearing before the Honorable Judge Andrea Webber
a judge of the Circuit Court of Cook County, and the order entered by the Court was

Dismissed / Want of Prosecution /

I hereby certify that the foregoing has been entered
of record on the above captioned case.

Dated:

November 26 , 2019

DOROTHY BRO
Clerk of the Circuit Court of Cook County, Illinois

DOROTHY BROWN, CLERK OF THE CIRCUIT COURT OF COOK COUNTY, ILLINOIS

Ceriified Statement of Disposition

(Rev. 1/06/05) CCG 0604

IN THE CIRCUIT COURT OF COOK COUNTY, ILLINOIS

PEOPLE OF THE STATE OF ILLINOIS
or

Chicago

CITY or VILLAGE of

No.

TN-666-330

v.

Jared Stubblefield

CERTIFIED STATEMENT OF DISPOSITION

I, DOROTHY BROWN, Clerk of the Circuit Court of Cook County, Illinois, and keeper of the records and the
seal thereof do hereby certify the records of the Circuit Court of Cook County reflect that:
On

September 20, 2018

a complaint was filed charging the

Defendant with the offense of ( 3707000) Operate Uninsured Motor Vehicle
On

November 29, 2018

the aforementioned cause was held for a

hearing before the Honorable Judge Andrea Webber
a judge of the Circuit Court of Cook County, and the order entered by the Court was

Non-Suit /

I hereby certify that the foregoing has been entered
of record on the above captioned case.

Dated:

November 26 , 2019

- DOROTHY BROW ,
Clerk of the Circuit Court of Cook County, Illinois

DOROTHY BROWN, CLERK OF THE CIRCUIT COURT OF COOK COUNTY, ILLINOIS

Certified Statement of Disposition

(Rev. 1/06/05) CCG 0604

IN THE CIRCUIT COURT OF COOK COUNTY, ILLINOIS

PEOPLE OF THE STATE OF ILLINOIS
or

Chicago

CITY or VILLAGE of

No.

TN-666-331

v.

Jared Stubblefield

CERTIFIED STATEMENT OF DISPOSITION

I, DOROTHY BROWN, Clerk of the Circuit Court of Cook County, Illinois, and keeper of the records and the
seal thereof do hereby certify the records of the Circuit Court of Cook County reflect that:
On

September 20, 2018

a complaint was filed charging the

Defendant with the offense of ( 3707000 ) Operate Uninsured Motor Vehicle
On

April 3, 2019

the aforementioned cause was held for a

hearing before the Honorable Judge Andrea Webber
a judge of the Circuit Court of Cook County, and the order entered by the Court was

Not Guilty /

I hereby certify that the foregoing has been entered
of record on the above captioned case.

Dated:

November 26 , 2019

DOROTHY BRAWN,
Clerk of the Circuit Court of Cook County, Illinois

DOROTHY BROWN, CLERK OF THE CIRCUIT COURT OF COOK COUNTY, ILLINOIS

(Rev. 1/06/05) CCG 0604

Certified Statement of Disposition
IN THE CIRCUIT COURT OF COOK COUNTY, ILLINOIS

PEOPLE OF THE STATE OF ILLINOIS
or
CITY or viLLAGE of

CHICAGO POLICE DEPT
No.

T N666327

v.

STUBBLEFIELD JARED G

CERTIFIED STATEMENT OF DISPOSITION

I, DOROTHY BROWN, Clerk of the Circuit Court of Cook County, Illinois, and keeper of the records and the
seal thereof do hereby certify the records of the Circuit Court of Cook County reflect that:

on 09/20/2018
Defendant with the offense of
on

96414B0 ILL STPING/STD/PK 85 FT BUS

04/03/2019

hearing before the Honorable

a complaint was filed charging the

the aforementioned cause was held for a

JUDGE 2244 WEBBER, ANDREA M

a judge of the Circuit Court of Cook County, and the order entered by the Court was
DISMISSED/WANT OF PROSECUTION

I hereby certify that the foregoing has been entered
of record on the above captioned case.

Dated: 11/18

19

DOROBROWN;
Clerk of the Circuit Court of Cook County, Blinois
DOROTHY BROWN, CLERK OF THE CIRCUIT COURT OF COOK COUNTY, ILLINOIS

1 of 3

UNITED STATES COURT OF APPEAL FOR THE SEVENTH CIRCUIT

Jared Stubblefield
Plaintiff - Appellant

V

U.S.C.A
R E CD
JAN 2 4

Os

Appeal case No. 19-2567
Appeal judges
Frank H. Easterbrook Circuit Judge
Amy J. S.T. Eve Circuit Judge
District court # 1:19-cv-02715
Northern District of Illinois,
Eastern Division
District judge Matthew F. Kennelly

Michael Seiser badge #4615
Defendants — Appellees

Circuit Court of cook county
No. TN666327
TN6663 28
TN666329
TN666330
TN666331
Judge 2244 Andrea M. Webber
Brief Summary
Now comes Jared Stubblefield as pro se litigants as my own counsel presenting for summary
brief. In this matter I was acting for my proposal order to be granted on the bases on my equal
protection under the united states constitution
On September 20,2018 I was work as an Uber driver picking up and dropping off people in the
evening. Around 8:00pm same day I was pulled over by Chicago police officers for multiple
tickets. I was pulled out my car taken to the police station to sign for some tickets, stopping me
from making money doing Uber. I had to got to court to defend myself against the tickets. I went
to trial and won in my defends. In this matter I was not allowed to file any motions or orders, but
luckily, I still won.
Since I won in my defends I wanted to proposal order for my attorney fee for defending this
matter. Pursuant 42 U.S.C. § 1983 & § 1988 the complaining party is liable for my attorney fee

2 of 3
since I won the matter. So, I filed in district court since asking to get the matter transferred
pursuant to 28 U.S. Code § 1455 and 28 U.S. Code § 1441. Also pursuant to article 3 section
and 2 of the United States Constitution.
When filed in district court, District judge Matthew F. Kennelly dismissed my case saying the
complaining party is immune for liable for my proposal order. But pursuant to 5th and 14th
amendments of the United States Constitution we have equal protection under the law and
nobody is immune in the court of law in the United States. 100 vol supreme court reports Owen,
v. city of independence pg 445 (1980).
As I was defining myself in this matter I was working as my own attorney , and I have a
constitutional right to work and contract my labor for what I see is fit for me.
Since We the People of the United States, in Order to form a more perfect Union, establish
Justice, insure domestic Tranquility, provide for the common defense, promote the general
Welfare, and secure the Blessings of Liberty to ourselves and our Posterity, do ordain and
establish this Constitution for the United States of America. So, I ask the court to grant my order.

January 13, 2020
Jared Stubblefield

3 of 3

UNITED STATES COURT OF APPEAL FOR THE SEVENTH CIRCUIT
Jared Stubblefield
Plaintiff - Appellant
Appeal case No. 19-2567
Appeal judges
Frank H. Easterbrook Circuit Judge
Amy J. S.T. Eve Circuit Judge

V.

District court # 1:19-cv-02715
Northern District of Illinois,
Eastern Division
District judge Matthew F. Kennelly

Michael Seiser badge #4615
Defendants — Appellees

Circuit Court of cook county
No. TN666327
TN666328
TN666329
TN666330
TN666331
Judge 2244 Andrea M. Webber
Propos' order
Attorney fee

January 13, 2020
Jared Stubblefield

$12,000,000

UNITED STATES COURT OF APPEALS FOR THE SEVENTH CIRCUIT

Everett McKinley Dirksen United States Courthouse
Room 2722- 219 S. Dearborn Street
Chicago, Minois 60604

Office of the Clerk
Phone: (312) 435-5850
www.ca7.uscourts.gov

FINAL JUDGMENT
March 27, 2020
Before:

DAVID F. HAMILTON, Circuit Judge
MICHAEL B. BRENNAN, Circuit Judge
MICHAEL Y. SCUDDER, Circuit Judge

JARED STUBBLEFIELD,
Plaintiff - Appellant
No. 19-2567

V.
CLERK OF THE CIRCUIT COURT OF COOK COUNTY, et al.,
Defendants - Appellees.
t

District Court No: 1:19-cv-02715
Northern District of Illinois, Eastern Division
District Judge Matthew F. Kennelly

The judgment of the District Court is AFFIRMED in accordance with the decision of this court
entered on this date.
form name: c7 Finaljudgment(form ID: 132)

NONPRECEDENTIAL DISPOSITION
To be cited only in accordance with Fed. R. App. P. 32.1

fitfrs Tourf of ApprztIs
For the Seventh Circuit
Chicago, Illinois 60604
Submitted March 26, 2020*
Decided March 27, 2020
Before
DAVID F. HAMILTON, Circuit Judge
MICHAEL B. BRENNAN, Circuit Judge
MICHAEL Y. SCUDDER, Circuit Judge
No. 19-2567
JARED STUBBLEFIELD,
Plaintiff-Appellant,

v.
CLERK OF THE CIRCUIT COURT OF
COOK COUNTY, et al.,
Defendants Appellees.

Appeal from the United States
District Court for the Northern District
of Illinois, Eastern Division.
No. 19 C 2715
Matthew F. Kennelly,
Judge.

ORDER
Jared Stubblefield sued the Clerk of the Circuit Court of Cook County, the City of
Chicago, and the State of Illinois for preventing him from obtaining "attorney's fees" for
successfully defending himself against traffic citations in state court. (He later named
the police officer who issued the traffic citations as a defendant.) He alleged that the
state traffic court violated his right of equal protection by not allowing him to seek
* The appellees were not served with process and are not participating in this
appeal. After examining the appellant's brief and the record, we have concluded that
this case is appropriate for summary disposition. FED. R. APP. P. 34(a)(2)(C).

No. 19-2567

Page 2

$12 million in compensation for his self-representation. After twice dismissing
Stubblefield's complaints with leave to amend, the district court dismissed his second
amended complaint with prejudice as legally frivolous. We affirm the judgment.
On appeal, Stubblefield does not make any legal argument for disturbing the
district court's judgment. But even if we generously construe his pro se appellate brief
as arguing that he stated a nonfrivolous claim, he must lose. In his second amended
complaint Stubblefield invoked Bivens v. Six Unknown Named Agents of Federal Bureau of
Narcotics, 403 U.S. 388 (1971), and on appeal he invokes 42 U.S.C. § 1983. On the facts
alleged, he could not state a plausible claim under either theory. Stubblefield has not
sued any individual federal defendants, so Bivens does not apply. See 403 U.S. at 395;
Small v. Chao, 398 F.3d 894, 898 (7th Cir. 2005). And § 1983 establishes a cause of action
only for the deprivation of the "rights, privileges, or immunities secured by the
Constitution and laws" of the United States. Stubblefield, however, has no right under
the Constitution or other federal law to receive attorney's fees (it is unclear from whom)
for defeating his traffic tickets as a pro se litigant. Simply invoking the phraseology of
the Constitution in connection with these alleged facts is insufficient to state a claim.
See Ashcroft v. lqbal, 556 U.S. 662, 678 (2009) (to state a claim pleading must do more
than offer "labels and conclusions" or conclusory legal assertions); Avila v. Pappas,
591 F.3d 552, 553 (7th Cir. 2010) (simply uttering the word "Constitution" is insufficient
even to establish federal subject-matter jurisdiction). The district court was correct to
dismiss this case as lacking in merit.
AFFIRMED

